<html>
<title> - A REGIONAL OVERVIEW ON THE MIDDLE EAST</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                 A REGIONAL OVERVIEW ON THE MIDDLE EAST 

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     THE MIDDLE EAST AND SOUTH ASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 28, 2009

                               __________

                           Serial No. 111-73

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

53-138 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
















                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

             Subcommittee on the Middle East and South Asia

                  GARY L. ACKERMAN, New York, Chairman
RUSS CARNAHAN, Missouri              DAN BURTON, Indiana
MICHAEL E. McMAHON, New York         JOE WILSON, South Carolina
SHEILA JACKSON LEE, Texas            J. GRESHAM BARRETT, South Carolina
SHELLEY BERKLEY, Nevada              JEFF FORTENBERRY, Nebraska
JOSEPH CROWLEY, New York             MICHAEL T. McCAUL, Texas
MIKE ROSS, Arkansas                  BOB INGLIS, South Carolina
JIM COSTA, California                GUS BILIRAKIS, Florida
KEITH ELLISON, Minnesota             DANA ROHRABACHER, California
RON KLEIN, Florida                   EDWARD R. ROYCE, California
BRAD SHERMAN, California
ROBERT WEXLER, Florida
ELIOT L. ENGEL, New York
GERALD E. CONNOLLY, Virginia
GENE GREEN, Texas
              Howard Diamond, Subcommittee Staff Director
           Mark Walker, Republican Professional Staff Member
                      Dalis Adler, Staff Associate






















                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Jeffrey D. Feltman, Assistant Secretary, Bureau of 
  Near Eastern Affairs, U.S. Department of State.................    16

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Gary L. Ackerman, a Representative in Congress from 
  the State of New York, and Chairman, Subcommittee on the Middle 
  East and South Asia: Prepared statement........................     3
The Honorable Dan Burton, a Representative in Congress from the 
  State of Indiana: Prepared statement...........................     8
The Honorable Jeffrey D. Feltman: Prepared statement.............    19

                                APPENDIX

Hearing notice...................................................    58
Hearing minutes..................................................    59
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the State of Virginia: Prepared statement.................    60
Written responses from the Honorable Jeffrey D. Feltman to 
  questions submitted for the record by the Honorable Dan Burton.    62


                 A REGIONAL OVERVIEW ON THE MIDDLE EAST

                              ----------                              


                      WEDNESDAY, OCTOBER 28, 2009

              House of Representatives,    
                Subcommittee on the Middle East    
                                        and South Asia,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:06 p.m., in 
room 2172, Rayburn House Office Building, Hon. Gary L. Ackerman 
(chairman of the subcommittee) presiding.
    Mr. Ackerman. The subcommittee will come to order.
    While this hearing is meant to cover the range of issues 
facing the United States and the region stretching from Egypt 
to the Persian Gulf, in my opening remarks I would like to 
focus on Iran. Like many others, I have been thinking a lot 
about Iran, and despite my best efforts, I keep coming back to, 
of all things, the second Reagan administration. It was in the 
second term that President Reagan and Secretary of State George 
Shultz negotiated significant convention and nuclear arms 
control agreements and helped thaw out the Cold War with 
frequent high-level summits. Throughout this period of 
intensive diplomatic engagement, however, President Reagan 
never stopped speaking powerfully and frequently about 
dissidents, human rights, and freedom.
    Obviously, the Soviet challenge then and the Iranian 
challenge today are very different. But what really stands out 
is the way the Reagan team in the second term sustained a 
multifocal, steady and comprehensive of pressure on the 
Soviets. The summitry demonstrated that the problem was in 
Moscow, not in Washington. The consistent focus on human rights 
and freedom reminded domestic, allied and Soviet audiences just 
how ugly the Soviet regime really was.
    Following some terrible strains in the transatlantic 
alliance in the first term, the Reagan administration worked 
hard on sustaining our relations in both Europe and East Asia 
to ensure that the Soviets had no political escape valve. 
Following the initial massive spasm of defense spending in the 
first term, the steady deployment of United States and NATO 
forces that were technologically passing by the Soviets simply 
couldn't be ignored. And, of course, the Intelligence Community 
made life in the Kremlin miserable, not only by stealing 
secrets, but organizing and supporting opposition to the 
Soviets wherever it could take root.
    So in thinking about our Iran policy today, what strikes me 
is how thin it seems to be. We seem to be depending on just one 
or two policy elements, when, in fact, many more are possible. 
President Obama's support for direct engagement with Iran, as 
with the Reagan-Gorbachev summitry that I have described has 
already helped to heal a variety of political woes, but by 
itself diplomatic engagement still leaves too much initiative 
in Iranian hands.
    Likewise, with economic sanctions, if the Iranians remain 
calcitrant and sanctions are applied, no matter how crippling--
and I would want them to be absolutely suffocating to the 
regime--the initiative is still left to the ayatollahs to 
decide when they have had enough. But what seems most puzzling 
to me is that the administration appears to have absolutely 
nothing at all to say about Iran's Green Movement. Staying out 
of the way in June was smart, but the complete silence since 
then is, to me, inexplicable.
    Support within Iran for the nuclear program runs across the 
spectrum, but there is a strong case to be made that the 
Iranian regime went to Geneva and has bargained since then, 
primarily because of their concern about domestic stability 
rather than fears about international sanctions.
    I have also heard from many leaders in the Middle East who 
complain that the Obama administration doesn't seem to have any 
better a plan for increasing the multilateral political and 
security coordination in the Persian Gulf than did their 
predecessors. And while the administration has increased 
American attention to the Israeli-Palestinian conflict, at 
least in part to win broader Arab support for pressure against 
Iran, my question would be, where is the support? The Iranians 
are actively stirring up trouble or developing or maintaining 
the capacity do so in Afghanistan, Iraq, Lebanon, the 
Palestinian territories, Egypt, Yemen, Bahrain, Kuwait and 
Morocco. Where is the countervailing United States response? 
Where is the Truman-like policy of committing ourselves to 
support our allies in their struggle to remain free from 
threats and subversion?
    I am not suggesting another Cold War or holding up Iran as 
the new Soviet Union. My concern is that we are dealing with 
the Iranians piecemeal and, thus, giving them too much 
opportunity to shape events to their liking. And I am not 
calling for linkage, where success in one area depends on one 
or more of the others, but I do think that we need a 
comprehensive approach.
    Like Gorbachev's team, the regime in Tehran is facing an 
unprecedented challenge from within. Why is it then we seem 
incapable of taking advantage of this fact and bemoaning for 
years the insufficiency of our leverage? We don't need to make 
threats, and we certainly shouldn't allow ourselves to get 
sucked into yet another conflict. But I can't help but wonder, 
why can't we squeeze with five fingers instead of just one or 
two?
    And with that I will turn to our ranking member, thank you 
very much, Representative Burton.
    [The prepared statement of Mr. Ackerman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Burton. Thank you, Mr. Chairman. I really appreciate 
you calling this important and timely hearing. There are 
countless issues that need to be addressed throughout the 
Middle East and South Asia, and it is very difficult to know 
where to begin.
    First and foremost on my mind is the threat posed by Iran 
in its suspected pursuit and development of nuclear weapons and 
missiles capable of carrying those weapons. The Iranian regime 
has shown no signs that it plans to respond positively to any 
diplomatic efforts by the United States or the international 
community to halt uranium enrichment. The alleged deal being 
negotiated in Geneva, which the Iranian regime has yet to 
accept almost 1 week after the deadline, doesn't require Iran 
to stop uranium enrichment or even ship its entire current 
stockpile of enriched uranium out of the country. In my 
opinion, that is not a good deal for the United States--or 
Israel, for that matter.
    The current Iranian regime has no regard for the United 
States, the international community or even the Iranian people. 
After the clearly rigged elections, we saw the outrage of the 
Iranian people toward a government that is continually 
misrepresenting their wishes with an appallingly heavy-handed 
response to protests. The time for inaction from the United 
States has long passed.
    I am pleased that earlier today the full Foreign Affairs 
Committee finally marked up Chairman Berman's Iran Refined 
Petroleum Sanctions Act of 2009. If we truly want to reach an 
agreement with Iran, then we must put some muscle behind our 
words; and the Iran Refined Petroleum Sanctions Act, in my 
opinion, is the kind of muscle we need.
    And I am very concerned that we have got three other 
committees that we have got to get this thing through. And we 
need to get it done quickly; I mean, it took 6 months to get 
this far, and I don't want it to take any longer than that, and 
I hope the chairman will push as hard as he can.
    While Iran is a net exporter of unrefined petroleum, it is 
a net importer of refined petroleum products like gasoline. In 
June 2007, when the Iranian Government implemented a gasoline 
rationing system, the Iranian public rioted. Giving President 
Obama the authority to target Iran's refined petroleum industry 
is sure to get the mullahs' attention and strengthen the 
President's hand in Geneva.
    It is my hope that this bill will move quickly to the floor 
for a vote, as it has already garnered the support of 330 
cosponsors. However, to do nothing and continue to allow the 
Iranians to delay and stall, their capabilities will grow; and 
one day we will see on the front page headlines an announcement 
that Iran has tested a nuclear bomb, and at that point it will 
be far too late for the international community to do anything.
    The second major concern on my mind also involves the 
Middle East. I am very concerned about the prospects for peace 
between Israel and Palestine. I believe that prospects for 
peace have taken a giant step backwards in recent weeks, in 
large part because of the Goldstone Report, recently issued by 
the despot-controlled United Nations Human Rights Council.
    This report accused Israel of war crimes, as well as 
possible crimes against humanity during Israel's defensive 
operations in Gaza last winter. From the beginning, the Council 
instructed the Goldstone Commission to focus only on 
``aggression against the Palestinian people,'' a presumption of 
Israeli guilt before any so-called investigation had even taken 
place.
    Article 51 of the United Nations Charter guarantees all 
U.N. members the right to defend themselves against terrorism 
and other external threats. The Goldstone Report completely 
ignores this fundamental right. It also ignores the steps taken 
by the Israeli defense forces to minimize civilian casualties, 
steps that often put Israeli soldiers at increased risk. And 
the Goldstone Report completely ignores Hamas' callous practice 
of intertwining its terrorist infrastructure within civilian 
population centers, hiding behind hospitals, schools, mosques, 
and even U.N. facilities.
    The Obama administration should completely reject the 
Goldstone Report. The Obama administration should also take 
steps to explicitly link future United States contributions to 
the U.N. with U.N. action to implement concrete act or root out 
the institutionalized fraud and corruption within the U.N. 
bureaucracy and then, once and for all, the naked, systematic 
anti-United States, anti-Israeli, anti-Semitic bias within the 
U.N.
    I know that is strong, but I mean it.
    Third, I would like to express my deep, deep concern over 
the administration's inaction on implementing General 
McChrystal's strategy for Afghanistan and Pakistan. While I 
disagree with the President on many foreign policy questions--
and I don't think that is much of a surprise--I do believe that 
President Obama was right a few months ago when he declared, 
``The conflict in Afghanistan will not be quick or easy. But we 
must never forget: This is not a war of choice; this is a war 
of necessity. This is fundamental to the defense of our people 
of the United States.''
    Withdrawal from Afghanistan is not an option. What I have 
heard over and over from witnesses before this committee is 
that if the Taliban is allowed to regain control of the 
country, the security of the world will be at much higher risk 
and the reputation of the United States and NATO will take 
years to recover.
    Victory is possible. Our counterinsurgency forces are more 
experienced and more knowledgeable than they have ever been, 
and our enemy is despised by the great majority of the Afghan 
people. The President's hand-picked commander, General 
McChrystal, has presented the President with a strategy to win 
the conflict, and it is inexcusable to delay.
    The President needs to act now before the situation in the 
region deteriorates even further, and General McChrystal must 
come and testify before Congress so that Republicans and 
Democrats can ask him questions the American people want us to 
ask. How do you propose to win the war and get our troops home 
safely?
    It has already been said 100 times before, but it bears 
repeating: Success in Afghanistan is crucial for success in 
Pakistan where there is a real threat of nuclear weapons 
falling into the hands of terrorists.
    Multiple intelligence estimates have warned that al-Qaeda 
is actively planning attacks on the United States homeland from 
its safe haven in Pakistan. If either the Afghan of Pakistani 
Government falls to the Taliban or allows al-Qaeda to go 
unchallenged, that region of the world would once again be a 
base for terrorists who want to kill as many of our people as 
they possibly can. It gets no clearer than that.
    The very people who attacked us on 9/11 are plotting future 
attacks on us in Afghanistan and the border region in Pakistan. 
We must disrupt and neutralize these groups before they strike 
again. This is a war of necessity and, as such, we must commit 
the necessary effort in order to be victorious.
    And, finally, I would like to briefly touch upon the broad 
issue of religious freedom. Religious freedom is a foundational 
value of the United States and the right to religious freedom 
is firmly enshrined in the Universal Declaration of Human 
Rights, Article 18. A nation's adherence to this principle is 
now, along with others, an indication and standard bearer for 
good governance that protects the rights of minorities and 
safeguards social peace. The promotion of freedom of religion 
and belief has been a consistent part of the U.S. foreign 
policy for decades.
    I recently introduced House Resolution 840 that condemns 
violations of religious freedom in the Middle East, calls on 
President Obama to renew the United States' commitment to 
promoting religious freedom as a cornerstone of U.S. foreign 
policy, and urges all Middle Eastern governments to respect and 
defend the rights of religious minorities within their borders. 
I hope all of my colleagues will join me in cosponsoring this 
important bill.
    And, once again, Mr. Chairman, thanks for calling this 
important hearing. I know I talked a long time, but I was 
trying to cover a lot of stuff. So I appreciate your 
understanding. Thank you very much.
    And I want to tell you I look forward to hearing our 
distinguished witness.
    [The prepared statement of Mr. Burton follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Ackerman. Thank you very much.
    The Ambassador has been waiting for over an hour for us 
because of votes, but I am going to see if we can ask each 
member that wants to make an opening statement if they could do 
it in 1 minute or so.
    Mr. Wexler.
    Mr. Wexler. Thank you, Mr. Chairman.
    Just very quickly I want to associate myself with the 
remarks of the chairman and the ranking member regarding Iran. 
Mr. Burton rightfully brings up the Goldstone Report. I think 
it is important to note that, in fact, the administration has 
opposed in many different avenues and in many different venues 
the Goldstone Report, the conclusions that it reached. And, in 
fact, the strongest response that the administration could 
provide is happening as we speak.
    In Israel today there is the largest American-Israeli 
missile defense joint exercise in the history of our two 
nations--on the ground in Israel, 1,300 American troops. 
Likewise, when our NATO ally just recently disinvited the 
Israelis from a military exercise, a joint exercise with the 
United States and other nations, we unequivocally responded by 
saying we would not show up as well.
    The level of cooperation between the United States and 
Israel on intelligence and military matters has never been 
greater, all for the purpose of security and peace, but also to 
maintain Israel's qualitative military edge. So I think our 
response from the administration on down to these disturbing 
events has been quite resolute.
    Thank you, Mr. Chairman.
    Mr. Ackerman. Ms. Berkley.
    Ms. Berkley. I am anxious to hear our witness' statement, 
so I think I will defer my questions until later or at least my 
statement until later.
    Mr. Ackerman. Thank you.
    Mr. McMahon.
    Mr. McMahon. I, too, Mr. Chairman, in the interest of time, 
will submit my statement to the record and just associate 
myself with the remarks that have been brought forth so far--
especially yours, Mr. Chairman.
    Mr. Ackerman. Thank you.
    Mr. Carnahan.
    Mr. Carnahan. I, too, will pass and take this up during 
questioning. So we can get started with the witness.
    Mr. Ackerman. Mr. Costa.
    Mr. Costa. Thank you, Mr. Chairman. I will take all 5 
minutes--no.
    I do appreciate the comments that the chairman and the 
ranking member made, and I, too, am concerned with the 
challenges we are facing in the Middle East today. And I look 
forward to the testimony of Ambassador Feltman, and let us 
begin there.
    Mr. Ackerman. To have five Members of Congress pass because 
they are anxious to hear you is the greatest sign of respect I 
have seen around here in a long time.
    Ambassador Jeffrey D. Feltman has appeared before this 
subcommittee on several occasions, but this will be his first 
appearance since being sworn in as assistant secretary of state 
for Near Eastern Affairs on August 18 of this year.
    Congratulations, Mr. Secretary.
    Ambassador Feltman ascended to his current position having 
been acting assistant secretary of state since February, and 
since December 2008 principal deputy assistant secretary. 
Previously, the Ambassador served as Ambassador to Lebanon, as 
a senior official in the Coalition Provisional Authority in 
Iraq for 14 months, as acting principal officer at the U.S. 
Consul General in Jerusalem.
    A career member of the U.S. Foreign Service since January 
1986, Ambassador Feltman brings a wealth of hard-won experience 
to his current position. We are fortunate to have him in the 
service of our country. We are delighted to welcome him back to 
our subcommittee today.
    Mr. Ambassador.

   STATEMENT OF THE HONORABLE JEFFREY D. FELTMAN, ASSISTANT 
 SECRETARY, BUREAU OF NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF 
                             STATE

    Mr. Feltman. Chairman Ackerman, Ranking Member Burton, 
distinguished members of the committee, thank you very much for 
inviting me to appear before you today. My colleagues in the 
State Department's Bureau of Near Eastern Affairs and I very 
much appreciate the committee's abiding interest in and 
attention to our Nation's priorities in the Middle East.
    I prepared a full statement for the record, so I will make 
a brief oral statement now and then look forward to any 
questions.
    Mr. Ackerman. Without objection, your full statement will 
be in the record.
    Mr. Feltman. As the committee is well aware, as the opening 
statements certainly indicated, the issues, the opportunities, 
the challenges that we face in the Middle East are among the 
most consequential for our Nation's security and national 
interests. They are among the most difficult; international 
peace and stability, nuclear proliferation, energy security, 
economic growth, and protection of human rights are all 
affected greatly by developments in this region we are 
discussing today.
    This administration is vigorously pursuing a comprehensive 
peace in the region, which we believe is not only in the 
interest of the parties of the conflict, but in America's and 
in the world's interests.
    The administration recognized from Day One that working to 
resolve the Arab-Israeli conflict is key to fostering 
stability, to addressing the security needs of our allies and 
to promoting United States interests in the Middle East, South 
Asia, and the broader Muslim world from Morocco all the way to 
Indonesia.
    Achieving a comprehensive peace will be challenging. The 
U.S. Special Envoy for Middle East Peace, Senator George 
Mitchell, knows all too well that committed, persevering and 
patient diplomacy will be required. Progress is quietly, but 
steadily being made, and we very much appreciate the support 
and assistance of this committee and Congress more generally 
for the work that we are doing.
    Our commitment to Israel's security and well-being remains 
unshakable. We believe that our pursuit of comprehensive peace 
in the region will make Israel more secure, the region more 
secure and stable, and in doing so, will also help promote 
American security and interests.
    Resolution of the Arab-Israeli conflict, of course, will 
not automatically resolve the other challenges that we face in 
the region, such as those outlined by the opening statements, 
posed by Iran, just as resolving concerns about Iran will not 
automatically produce an end to the Arab-Israeli conflict. But 
efforts on these fronts and on others are mutually reinforcing.
    Like all of you, we are all watching developments with Iran 
very closely. The administration is implementing a strategy of 
principled engagement with Iran, where we deal with the 
Government of Iran directly and work to resolve diplomatically 
the international concerns about its nuclear program.
    The October 1st P5+1 meeting in Geneva with the Iranians, 
in which we participated actively, was a constructive first 
step, but it must be followed by constructive actions, by 
tangible steps. We look to Iran to respond quickly and 
positively to efforts by the P5+1 and the IAEA to make progress 
on the commitments on October 1st and to build confidence in 
negotiations. But the P5+1 countries have made clear that our 
approach runs on two tracks, and we are prepared to pursue 
increased pressure if negotiations stall or prove fruitless.
    The opportunity for engagement is genuine, but it will not 
be open-ended if Iran continues to refuse to fulfill its 
obligations. We are not going to talk simply for talking's 
sake.
    We are also concerned--as your opening statements indicated 
you are as well, Mr. Chairman--about Iran's other policies, 
including Iran's abysmal human rights record: The disturbing 
aftermath of Iranian elections, which saw hundreds arrested and 
scores killed, as well as Iran's support for terrorist groups 
across the broader region.
    One American citizen, Kian Tajbakhsh, was among those 
convicted and tried in the summer's show trial. He was recently 
sentenced to 15 years for baseless charges. Other Americans, 
including the three American hikers, remain imprisoned in Iran 
with no charges and not even any contact with their families; 
and we have made clear to Iran that they should all immediately 
be allowed to rejoin their families in the United States. We 
continue to call on Iran to resolve the 2-year-plus case of 
missing American citizen Robert Levinson.
    Turning our attention to Iraq, the United States stands by 
all Iraqis at this crucial time leading up to national 
elections, and we pledge to join them in working together to 
combat all forms of violence and attempts at intimidation. The 
devastating bombings against government targets on October 25 
and those on August 19 were truly horrific, but they do nothing 
to shake the determination of the Iraqi Government to build a 
peaceful and prosperous country or America's determination to 
help the Iraqis do just that.
    In fact, violence in Iraq remains at levels significantly 
lower than that of 2006 and 2007, and we will continue to 
transition from a U.S. military- to a U.S. civilian-led mission 
in Iraq. We also remain committed to meeting the withdrawal 
time line set forth in the security agreement that we concluded 
at the end of last year.
    The United States commitment to Lebanon's sovereignty and 
independence remains firm and will not be compromised by our 
engagement with any other party in the region. Mindful of 
Lebanon's delicate internal situation, we also recognize that 
there can be no lasting solution to the Arab-Israeli conflict 
reached at Lebanon's expense. We continue to support the 
efforts of Prime Minister-Designate Hariri to form a government 
on the basis of Lebanon's legitimate elections held last June.
    The administration has initiated a strategy of principled 
engagement with Syria, and I and others have made several trips 
to Damascus this year, opening lines of communication. But the 
Syrians must realize that our ability to expand our engagement 
with them depends on the level of cooperation they show in 
areas of concern to the United States, including respect for 
Lebanon's sovereignty and control of foreign fighters seeking 
to enter Iraq.
    We continue to develop our strategic relationships with 
other partners in the Gulf, North Africa and throughout the 
region. Our friends in the region remain critical to our energy 
and our defense interests, and we consult with them frequently 
on an array of issues of mutual concern.
    The challenges of the region are difficult ones: Persistent 
conflict and insecurity, an acute and impending increase in the 
youth demographic, and democratic institutions of governance 
that are often absent or weak. President Obama and Secretary 
Clinton have put us on the path of forging a new beginning for 
United States relations with Muslim communities in the Middle 
East and around the world. With our friends and allies, we are 
reinvigorating more comprehensive partnerships, reaching beyond 
governments to touch the lives of individuals through economic, 
educational and scientific cooperation. Together, we can forge 
solutions to shared problems and seize the opportunities for 
progress that exist in the region.
    I want to thank you, Mr. Chairman, for your past and your 
ongoing support of the efforts of our brave diplomats and our 
troops across the Middle East, often serving in the most 
difficult and challenging circumstances.
    And now, I look forward to taking your questions.
    Mr. Ackerman. Thank you very much, Ambassador.
    [The prepared statement of Mr. Feltman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Ackerman. In your statement you said, with regard to 
Iran, that we are pursuing a two-track approach. Why not a 
comprehensive approach? Why not all of the things that I 
mentioned? Why is multiple choice not ``all of the above,'' 
just ``A and B''?
    Mr. Feltman. The dual-track approach I mentioned is one 
that we are pursuing with the P5+1 partners. And it is focused 
primarily on the nuclear file that causes so much concern in 
the region and globally.
    But let me assure you, Mr. Chairman, that we have a pretty 
comprehensive understanding of the problems that Iran's 
behavior poses, and we are addressing these in different ways. 
I will just mention four problems.
    One is Iran's nuclear ambition. Big problem.
    A second is Iran's repression of its own people, its 
violation of its own people's human rights.
    Mr. Ackerman. We will stipulate that you have made those 
points and that they are clear. I am talking about the approach 
to those problems.
    Why not have a policy that we are not only helping, but 
utilizing the fact that they have this Green Movement going on 
over there?
    Why not utilize the fact that they have all these other 
countries that are living in fear and trepidation of them every 
single day, and work to line them up?
    Why not give an assurance, Truman-like, to as many 
countries as we can there that we are their protector and will 
protect them against any threat by Iran under the following 
terms and conditions? And put in maybe a word about 
participating in sanctions or anything else that might fit in 
that?
    Why not all of these things at once?
    Mr. Feltman. Mr. Chairman, I believe we are addressing 
these issues that you have mentioned.
    For example, there is much greater international emphasis 
now.
    Mr. Ackerman. With all due respect, I have not heard an 
utterance about the Green Movement there, so I don't know how 
you are pursuing it unless--are we sending secret messages to 
the Green Movement or something?
    Mr. Feltman. On the Green Movement, per se, of course this 
was an indigenous Iranian movement of the Iranian people very 
heroically going out on the street. It was not anything 
orchestrated by the international community.
    Mr. Ackerman. Have we said that?
    Mr. Feltman. Yes.
    Mr. Ackerman. To?
    Mr. Feltman. I think that we have been clear.
    Mr. Ackerman. We have been saying it to each other.
    Mr. Feltman. I think we all recognize that the Iranians 
very courageously have taken to the street after elections, are 
looking to see confirmation of some kind of legitimacy of their 
governing institutions.
    We now have the opportunity, and we have used it, to speak 
to the Iranians directly about our concerns of what we saw 
afterwards. That was one of the messages that was delivered to 
the Iranians directly on October 1.
    We continue to provide support to civil society in Iran and 
across the region to create space for civil society voices to 
be heard, to be protected. We continue to look for other 
international fora in which we can highlight the abysmal 
practices that Iran----
    Mr. Ackerman. I want to move on in this, but I will just 
make the point one more time.
    It would have been very helpful, I think--certainly not 
while it was occurring, because it would have made the regime's 
point that the thing is U.S.- or Western-inspired. But 
afterwards, which includes today and tomorrow, it might not be 
a bad idea to let people know verbally--out loud, for all the 
world to see, including them, the kind of support, at least 
talk--that we appreciate what they are doing and that we are 
inspired by their courage.
    You know, some statement. It doesn't have to be what I 
said, but something would certainly be helpful to let them know 
they are not alone. Because, you know, I think everybody 
understands that that is probably in the interest of moving the 
ball forward except we are not going to move the ball forward 
unless there is somebody there that appreciates its being moved 
forward and these people get some kind of encouragement.
    Let me ask you a question about Lebanon, and then we will 
move on.
    In two areas where you are looking to improve our relations 
with Syria--our relations, as well as the Israeli-Syrian peace 
agreement dialogue or whatever--are we going to be willing to 
pay for that in Lebanese coin?
    Mr. Feltman. The answer is unequivocal. No.
    Our discussions with the Syrians, our dialogue with the 
Syrians is not going to come at the expense of Lebanon's 
sovereignty. We are not trading away Lebanese sovereignty in 
order to gain something with Syria. Absolutely not.
    Mr. Ackerman. Great. I wanted to hear that on the record.
    Is the administration still committed to the full 
implementation of U.N. Security Council Resolution 1701?
    Mr. Feltman. 1701 is actually the basis, the foundation 
stone, of our policy with Lebanon. And we saw another violation 
of 1701 yesterday that just heightens our concern and the need 
to see that resolution fully implemented.
    The rocket was fired from Lebanon into Israel last night. 
The Israelis responded. It is a reminder that we need to 
reinvigorate this resolution, we need to see this fully 
implemented by all parties.
    Mr. Ackerman. Lastly, is the administration going to 
support the Special Tribunal for Lebanon until it finishes its 
work and make no deals with any party that would jeopardize the 
Tribunal's future?
    Mr. Feltman. We are fully committed to supporting the 
Tribunal until it finishes its work.
    We are not involved in the Tribunal, which is as it should 
be. This is not a political tribunal. This is to bring justice 
to an unsolved assassination case and, hopefully, to bring the 
end of the era of impunity, and we will be fully supportive of 
that tribunal.
    Mr. Ackerman. Thank you, Mr. Ambassador.
    Mr. Burton.
    Mr. Burton. Thank you, Mr. Chairman.
    I guess, first of all, these comments I am going to make 
are not directed at you, Ambassador. You have got a tough job 
and I appreciate that.
    But the frustration level among a lot of us--and it goes 
across party lines, I think, although people on the other side 
may not be as willing to make some of the statements that I 
will.
    The Obama administration, to me, really hasn't taken a 
strong position on Iran. Iran is the one that has got its 
finger into so many pies over in the Middle East it isn't 
funny. And while we are talking about some kind of a 
negotiation process, they continue down that path, I believe, 
toward a nuclear weapons program.
    And what really bothers me is that we have said, you know, 
we are going to continue to try to find a path to peace. And it 
reminds me--as I said earlier today in our other hearing about 
Lord Chamberlain, Munich, Clinton talking to the North Koreans 
trying to work things out--these people who are despots, who 
have a goal in mind in Iran, is to destroy Israel, as well as 
possibly the United States and they are supporting terrorist 
organizations, Hezbollah, Hamas and God only knows who else.
    We ought to be stating in a very, very strong way that 
while we are willing to negotiate with them, there is a limit 
to our patience, and that we are going to move and we are going 
to support Israel in moving to make sure they don't develop 
this nuclear weapons program.
    What they have said in Geneva and elsewhere, they ring 
hollow to me and they still are kind of backing and vacillating 
around that. They need to know very clearly where the United 
States and our allies stand, and they are not getting the 
message.
    I mean, you know, I remember back in Lebanon, or in Libya, 
when Muammar Qadhafi was rattling his sabers and everything and 
Reagan kept warning them that this was not right, that we 
weren't going to allow this to happen. And then we moved, and 
we bombed him, and you didn't hear any more from Muammar 
Qadhafi until just recently because he knew the United States 
was resolute of purpose.
    And that is what we need to do now with Iran. We need to 
let them know that if they continue down this path toward a 
nuclear development program that will endanger our ally, 
Israel, will destabilize Iraq, the whole Middle East, then they 
have to know that we are willing to support Benjamin Netanyahu 
in Israel and we are going to do whatever has to be done to 
stop them.
    They are a terrorist state, and what bothers me is that 
there has not been any definitive statement made by this 
administration. And, quite frankly, we didn't do as much in the 
last administration as we should have. We should have been 
very, very straightforward and let them know exactly what the 
price was going to be if they kept--if they were going to keep 
heading down the path they were on.
    So I am not going to ask any questions, except to say that 
I hope that you as the ambassador and a person who has great 
expertise in that area will carry back the message to the 
administration that--let's send them a direct message: Look, we 
want to work with you. We want to stop this nuclear development 
program. But if you don't move, even though we are talking 
about sanctions and all that sort of thing right now, which may 
or may not happen, if you continue down that path and our 
intelligence-gathering capability indicates you are going on 
with this development program, you are going to pay a heck of a 
price.
    And we are not talking about damaging individual citizens 
over there, or killing people who are good friends of the 
United States who live in Iran, people who really like the 
United States; but those people who are in charge, those sites 
that are developing nuclear capabilities and nuclear weapons, 
they are going to be our targets and we are going to go after 
them.
    Once they know we mean business, like Muammar Qadhafi did, 
I think you will see a change. But until that time, just this 
hyperbole and these words ain't going to cut it.
    And, with that, Mr. Chairman, thank you for yielding me 
this time.
    You can respond if you like, but what I would like to hear 
is that you are going to send them this clear message.
    Mr. Feltman. Ranking Member Burton, I will certainly take 
the message back to the administration, as you request, and 
take your views back.
    You know, we do want a diplomatic solution to this. But let 
me make a couple of comments.
    Diplomatic solution doesn't mean soft. Diplomatic solution 
doesn't mean that we roll over and play dead. Diplomatic 
solution means we work multilaterally, we work bilaterally, we 
line up alternatives. So we do want a diplomatic solution.
    But we also agree with you 100 percent: This cannot be an 
open-ended process of talking for talking's sake.
    Mr. Burton. Let me just say this and I will be quiet.
    As long as they think that we are not going to act, they 
will just keep playing us like a deck of cards. They have to 
know there is a fist there and that fist will be utilized if 
they don't stop this nonsense.
    With that, I yield back.
    Mr. Ackerman. Mr. Wexler.
    Mr. Wexler. Thank you, Mr. Chairman.
    I don't view my station in life as being that where I 
always have to respond to Mr. Burton, as much as I respect him, 
but yesterday the National Security Advisor of the United 
States of America, I think a gentleman we would all agree is a 
fairly serious man, General Jones, stood in front of a group of 
people and said with respect to Iran, outlining the policy of 
engagement, at the end said, but understand all options are on 
the table.
    I think adults understand what General Jones means when he 
says all options are on the table.
    Mr. Ambassador, if I could, in the context of what I hope 
is an understanding that I support 110 percent the efforts that 
the administration has undergone with respect to the Israelis 
and the Palestinians, I would like to ask you with respect to 
our position with respect to settlements, I don't understand 
the rationale of presenting settlements as the central core 
issue of the Israeli Palestinian dispute when in fact there are 
issues that equal or are greater in terms of what is going to 
be required to resolve this historic conflict.
    But to the extent that we do address settlements--and I 
believe that they should be addressed, absolutely--why is it 
that we are not focused mostly on those settlements that in 
fact pose a significant obstacle to the ultimate creation of a 
contiguous Palestinian state which is prosperous, as opposed to 
those settlements that I believe, at least in private, all 
responsible parties understand ultimately do not pose that kind 
of an obstacle to the ultimate creation of a Palestinian state?
    I understand the legalities. I understand that, in effect, 
under our law all settlements at this point are treated the 
same. But the truth is, in terms of moving forward at a very 
difficult process and permitting the Israeli Government an 
opportunity to, in fact, take significant risks for peace, if 
we focused on those settlements that, in fact, do pose an 
obstacle to a contiguous Palestinian state, isn't this a 
formula that might possibly allow us to get at the heart of the 
issue as to why the question of settlements needs to be 
addressed as soon as possible?
    Mr. Feltman. Congressman Wexler, thanks for the question.
    I need to state from the outset, because everything will be 
conditional on this, that President Obama stated our policy on 
settlements clearly in several different fora, including the 
U.N. General Assembly when he said that the United States does 
not accept the legitimacy of ongoing settlement activities. 
That is the policy.
    What have we been trying to do lately? We have been trying 
to get the parties back to direct negotiations where they deal 
with the big issues and they deal with the permanent status 
issues. The discussions on settlements that we have been having 
with the Israelis are not some condition that we want to see 
met before we get to negotiations. We want to get to 
negotiations as quickly as possible.
    We are asking the parties to take steps that would improve 
the atmosphere, that would make it more conducive that these 
negotiations be successful. And we have also reminded the 
parties in that context, in building the right atmosphere of 
trust and confidence you need for negotiations to succeed, that 
the parties have made certain obligations to each other 
already. The Israelis have accepted the road map that calls for 
a settlement freeze, including natural growth, full stop.
    So it is in that context we have been talking to the 
Israelis about a settlement freeze, but it is not a condition 
for negotiations. We want to get back to negotiations quickly.
    In terms of the proposal that you are suggesting, it is 
something that I believe would start to be--come in play as we 
get back to negotiations, as people start to discuss borders, 
and people start to talk about the territorial aspects of these 
negotiations. It becomes much easier to say which settlements 
are the ones that might be looked at a little bit differently, 
but our goal is to get the parties back to direct negotiations 
where all these issues can be discussed as quickly as possible 
in the best atmosphere.
    Mr. Wexler. Prime Minister Fayyad's plan, which I think is 
the most intelligent statement ever put forward by a 
Palestinian leader to push forward with 2 years of 
institutional building across the board, what are we doing to 
support those efforts, if I may ask?
    Mr. Feltman. I agree with your statement. It is an 
excellent plan. Prime Minister Fayyad, who I know you know 
personally, is a very serious leader who sees that to have a 
Palestinian state it is not enough. To declare statehood, you 
have to have the institutions that make that state work, that 
are accountable, that are answerable to the Palestinian people.
    And we have full confidence in the vision that he has 
outlined in that plan. We stand ready with the international 
community to help Salam Fayyad realize that plan of building 
those institutions the Palestinian state needs in 2 years. But 
we want to be led by the Palestinians themselves. This is a 
Palestinian effort. It is not some kind of international 
effort. We will be supportive to the extent that they welcome 
our support.
    Mr. Wexler. Thank you very much.
    Mr. Ackerman. Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Mr. Ambassador, I know there have been serious mistakes 
that America has made in foreign policy in the past. There is 
no doubt about that. So my criticism of the Obama 
administration and my negative analysis so far is not just 
aimed at President Obama. There are things that should have 
been done in the past that weren't done.
    But since the President took over, he had what appears to 
have been a sensitivity or a sincerity offensive in trying to 
prove to the people of the world that the United States, we 
really are sincere, good guys--and I at least interpreted it 
that way, in trying to be as open-minded about it as I could 
about it at the time. But his basically apologies for alleged 
misdeeds that occurred decades ago in Iran, for example, has 
that in any way worked to alter what we would consider the 
negative policies of Iran, for example, support of terrorists 
or perhaps moving forward on their nuclear program?
    Mr. Feltman. Iran is still playing a destabilizing role in 
the region, without question. Whether we are talking about the 
nuclear file, whether we are talking about its support for 
terrorism, Iran's rejection of a two-state solution or Iran's 
repression of its own people, Iran is still playing a deeply 
negative role in the region.
    Mr. Rohrabacher. So the President reaching out to these 
people in an act of sincerity has actually perhaps resulted in 
the opposite from what he would have wanted?
    Mr. Feltman. He--what I--Mr. Congressman, how I would 
respond would be to note that, by not talking to Iran for 30 
years, we also were unable to modify Iran's behavior. So Iran 
was supporting Hezbollah, building up its nuclear capacity in a 
time when we in fact were refusing to deal with it.
    Mr. Rohrabacher. I am exactly not talking about necessarily 
talking with them, but when someone apologizes for an American 
CIA operation back in the 1950s, 60 years ago in another 
century, and takes that approach on trying to win or open up 
dialogue, it looks like to me that that approach failed.
    Mr. Feltman. I believe when the President has given his 
speeches, such as the one in Cairo, he has been essentially 
putting a challenge before the people of the Middle East. He 
has said, ``We are willing to look at our history, our own 
stereotypes. We are willing to look beyond our own stereotypes, 
and we are asking you to do the same.'' It is a new language 
that he hopes can be one of our tools in order to break through 
on the impasse, whether we are dealing with Iran or any number 
of other challenges that we have.
    Mr. Rohrabacher. For example----
    Mr. Feltman. It is not naive or ill considered. It is 
allowing us to use diplomacy and engagement in a way that we 
might be able to make some headway with the other side.
    Mr. Rohrabacher. We will find out if it is ill conceived 
when we look at the results.
    For example, the President--is this perception wrong that 
the President has stepped back from the intense human rights 
criticism that we were actually focusing and directing toward 
Iran prior to this administration? For example, during the 
elections and the demonstrations after the elections, because 
of the crooked elections there in Iran, there were many 
demonstrators out; and some of us who had been watching the 
scene noted a lack of intensity over America's, let's say, 
support, verbal support for people who were in the streets 
struggling for democracy.
    Mr. Feltman. I think you are aware, Congressman, of the 
attempts by the Iranian Government to say that those 
demonstrations that took place after the results of the June 
elections were something foreign grown. They were something 
inspired from the outside. We all needed to be very sensitive 
so that those----
    Mr. Rohrabacher. That seems to be the word. This 
administration, they are sensitive.
    Let me ask you this. They have arrested--I only have a 
little bit of time left--they arrested some of the leaders, 
some of the democratic leaders of those demonstrations against 
crooked elections and a mullah dictatorship. They are holding 
these elections as a facade for their own control. What have we 
done to challenge the Iranian mullah dictatorship on the lives 
of these leaders who have now been condemned to death? What 
have we said will happen as a result if they do indeed execute 
these people?
    Mr. Feltman. You know there are a number of things, 
Congressman, that have been happening. I would draw your 
attention to the statements the White House and the State 
Department have made in response to the sentencing of an 
American citizen, a fellow American, Kian Tajbakhsh, an Iranian 
American scholar. We strongly condemned this. This was one of 
the roundups after the elections where this American was 
arrested. We have condemned this strongly and firmly.
    We have addressed our concerns now directly to the Iranians 
on the margins of the October 1st meeting. We have made our 
statements clear, and we continue to look for other ways to 
draw attention to Iran's dismal human rights record. It is 
appalling treatment of its own citizens in the aftermath of the 
elections.
    Ultimately, the Iranian Government needs to earn the 
respect of its own people, and that will help it gain respect 
internationally. But we have been absolutely clear about our 
support for democracy, civil society, the fact that the Iranian 
voices of the people need to be heard in Iran.
    Mr. Rohrabacher. It hasn't been clear to me.
    Thank you very much.
    Mr. Ackerman. Your time has expired.
    Ms. Berkley.
    Ms. Berkley. Thank you, Mr. Chairman; and thank you so much 
for joining us, Mr. Ambassador. There are a couple of issues 
that I would like to explore with you, if I may.
    I am in favor of a two-state solution, and I am on record 
for many years talking about it. Of course, it has to be a 
viable Palestinian state with--as you stated, with functioning 
government institutions, a functioning economy so that the 
Palestinian people could get jobs to support themselves, and 
with no Hamas living side by side with a secured Jewish state 
of Israel.
    When I met with Mr. Fayyad this summer, we had a most 
engaging and lively conversation. And I, too, agree that he has 
done an extraordinary job. But when I asked him whether the 
Palestinians were prepared to give up the right of return in 
order to move forward in the peace process and create a two-
state solution, he refused to answer my question. He was very 
gracious and very charming, but he would not give me a 
definitive answer. And that concerned me quite a bit, because 
there cannot be a democratic Jewish state of Israel without the 
Palestinians giving a right of return.
    But there are two issues that I would like to explore with 
you. One is the settlements; and I am glad that my dear friend 
who I am going to miss terribly in Congress, Mr. Wexler, 
brought this up. I think we made a very large strategic blunder 
when we publicly dressed down the Israelis regarding the 
settlement issue but should have and could have been said 
behind closed doors I think created a problem.
    I don't think that the settlements are the seminal issue. 
There were no settlements in 1948 or 1956 or 1967, and Israel 
still managed to get itself attacked. It wasn't an issue then, 
and I don't believe it is an issue now.
    Rather than bring the parties closer to sitting down and 
negotiating for a comprehensive peace agreement, I think it put 
the Israelis in a very uncomfortable and awkward position. And 
it gave Abu Mazen something else to keep him from sitting down 
at the peace table, saying that now he absolutely will not sit 
down unless all settlement activity ceases, and that may not 
happen for a while, and that is just keeping the two parties 
further apart.
    Another issue that you brought up that I always--it is the 
linkage issue. And if only we could resolve this problem 
between the Israelis and the Palestinians that everything else 
would solve itself or we would be much closer to solving the 
problems that plague the Middle East. But I will submit to you 
that if Israel ceases exist tomorrow, would the plight of the 
Palestinians be any better than it is today? I would suggest to 
you that it would not be any better and their lives would not 
be improved by the disappearance of the state of Israel.
    Would Iran end their nuclear ambitions if Israel ceased to 
exist? I don't think so.
    Would the Sunnis and Shiites lay down their arms and stop 
killing each other in Iraq if Israel ceased to exist? I don't 
think so.
    Would Taliban stop recruiting and lay down their arms 
throughout the Middle East and other parts of world? Again, I 
don't think so.
    Would the Saudis move toward democratic institutions and 
give women equal rights in their country? Absolutely not.
    So I am always concerned when I hear members of the 
administration or my colleagues, who I value very much, 
creating this linkage which I don't think truly exists. And I 
think it gives the Arab countries just the excuse they need to 
do nothing to improve the situation in their own countries, 
just blame it on Israel and we can buy more time to continue to 
do what we already do.
    And, frankly, I think a show of good faith would be--and if 
we are going to put pressure on anybody, rather than on 
settlements, how about the Arab countries and this ridiculous 
economic boycott against the state of Israel?
    And I thank you very much for being here.
    Mr. Feltman. Representative Berkley, thank you.
    I will comment on the last one first. Because I am sorry if 
I wasn't clear. There is no formal linkage between these 
issues. What I said is we would hope the progress on one could 
lead to mutually reinforcing progress on the other. But there 
is no formal linkage. I couldn't agree with you more on that.
    What happens is that the Israeli Palestinian conflict 
becomes a pretext. It becomes an ability for Iran to muck 
around in the region. And so, by addressing that, we perhaps 
could help address the question of Iran's misbehavior in the 
region.
    But I agree with you that these things are not formal 
linkages. We need to be working on all of these issues 
simultaneously on their own merits. We are a great power. We 
should be able to have diplomacy focus on Iran and the 
diplomacy focus on getting to an Arab-Israeli comprehensive 
peace in which Israel can live in peace and security in the 
region.
    So I am sorry if I made it sound as though we are doing 
formal linkages, because that is not in fact what we are doing.
    In terms of Hamas, I think it is worth reiterating--you 
have heard this from us a lot, but it is worth reiterating that 
Hamas can come to the table when Hamas abides by the Quartet 
Principles: Recognition of Israel, renunciation of violence, 
and adherence to the PLO's past agreements. These shouldn't be 
obstacles to some kind of Palestinian states. These are the 
foundation stones, the building blocks of what the Palestinians 
need to build that state. That is what we are asking before we 
have any sort of dealings with Hamas on our side.
    Ms. Berkley. Thank you.
    Mr. Ackerman. The time of the gentlewoman has expired.
    Mr. Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman; and thank you, 
Ambassador, for being here.
    I wanted to focus I guess on I think we have seen the new 
administration step up to the plate in an important way in 
terms of their reengagement around the world and especially in 
the region of the Middle East. We have seen I think an improved 
credibility. I believe we have seen an increased priority in 
what we are doing there.
    I want to ask you, with regard to the Arab states in the 
region, what you see as bright spots in terms of those states 
stepping up to help make progress. Certainly we have seen some 
leadership from Egypt in the heading talks, but I would like 
you to explain some of the bright spots you see in terms of 
Arab states stepping up to help make progress.
    The other question I have is, we were in Lebanon this past 
spring and got a chance to see some of the refugee camps there, 
and I am especially curious of your opinion of what is going on 
in terms of addressing the issue of refugees and the other Arab 
states stepping up on that issue.
    Mr. Feltman. Representative Carnahan, thank you.
    We do see some--you have asked about some bright spots in 
terms of Arab engagement with us in response to our own 
engagement. I will give you some examples of bright spots, but 
let me tell you from the start we would like to see more bright 
spots.
    Mr. Carnahan. We all would, indeed.
    Mr. Feltman. So, just want to be clear, I am not looking at 
this and saying, this is great. We have these bright spots and 
are finished. No, we want to keep going.
    You mentioned Egypt. Egypt has played a very, very 
important role in sending some pretty clear messages to Hamas 
about the need for Hamas to abide by those Quartet Principles. 
Egypt has taken some very important steps, particularly since 
the January conflict, in preventing smuggling of arms and money 
to Hamas via the tunnels. That is one example.
    Saudi Arabia has just recently given $200 billion to the 
Palestinian Authority, to the government headed by Prime 
Minister Salam Fayyad. This is an important step, because we 
need to have these Palestinian institutions functioning and 
healthy for the time that we get the Palestinian statehood.
    We are working with a number of states in the Gulf in 
particular on various aspects of military and security issues; 
and this, of course, has to do with in large part the concern 
that all of us have about Iran's ambitions.
    In the countries of North Africa, where we have a very 
robust counterterrorism with the countries of North Africa to 
try to interrupt the networks across the Sahel, the al-Qaeda 
and the Islamic Maghreb, as it is called, the terrorist 
networks that both wreck havoc in the Sahel area of Africa and 
North Africa as well as feed into the foreign fighter pipeline 
that goes to Iraq.
    So we have seen some bright spots in terms of Arab 
responsiveness to the diplomacy that we are engaged with across 
the region. We certainly would like to see more.
    Mr. Carnahan. And in particular about the refugee camps.
    Mr. Feltman. Oh, I am sorry. In terms of Lebanon, since you 
visited there, I am sure you are aware of just how sensitive 
this issue is in Lebanon, that the Lebanese are divided in 
every which way on every issue you can imagine, but they are 
united on the issue regarding the Palestinian refugees.
    And I would just repeat what I said in my statement, is 
that we understand that you are not going to have a 
comprehensive solution to the Arab-Israeli peace conflict 
without taking these Lebanese sensitivities into account. You 
are not going to have a solution on the back of Lebanon, in 
essence.
    In terms of the broader issue of Palestinian refugees, this 
is one of the reasons we need to get back to the negotiating 
table as quickly as possible. We are not going to be able to 
have an honest discussion on this issue except through the 
context of direct negotiation between the Israelis and the 
Palestinians; and the sooner we get to that, the better for all 
the states in the region, certainly the better for the poor 
Palestinian refugees.
    Mr. Carnahan. Thank you. I yield back.
    Mr. Ackerman. Mr. McMahon.
    Mr. McMahon. Thank you, Mr. Chairman. Thank you for being 
with us today, Ambassador.
    Ambassador, Turkey is not, by definition, a Middle Eastern 
country, but it most certainly has a profound influence on the 
countries in the Middle East. What are the implications of 
Turkey's evolving identity with regards to the Middle East and 
the issues that we have spoken to today?
    Mr. Feltman. Representative, I will have to be a little bit 
careful, since I don't want my European Bureau colleagues to 
question what I am doing, testifying before Congress about a 
country that falls outside of my region. So I will talk about 
it a little bit in terms of Turkey and my region, rather than 
Turkey per se.
    Turkey has played, for example, a very constructive role in 
Iraq. Turkey obviously has some security issues in terms of 
Kurdish terrorists who are located in northern Iraq, but in 
general Turkey has played a very positive role in helping to 
stabilize Iraq.
    Turkey played a very important role in leading proximity 
talks between Israel and Syria that have fallen apart, 
unfortunately, for a number of reasons--the change of Israeli 
Government, the war in Gaza in December and January. But Turkey 
was able to use its good influence and offices to promote a 
kind of dialogue that took place between Israel and Syria.
    The Syrian-Turkish relationship is one that is evolving. I 
would say evolving in what we would see as sort of a positive 
healthy direction. A few years ago, Turkey and Syria were 
hostile to each other. Now they have grown closer. To the 
extent that Syria can build ties with others, see its interest 
linked with others and not exclusively to Iran, I think that is 
inherently good.
    We are concerned about what led to the cancellation of the 
multilateral exercise that was planned for Turkey, the decision 
by the Turks that one of the partners would not be welcome, so 
we are watching these sorts of elements. But, in general, the 
role of Turkey in our region, it is strong, it is growing and 
has basically been positive.
    Mr. McMahon. And certainly, but for that event with the 
exercise, certainly probably has a role that could be helpful 
as a broker or as an ally to us toward peace. And it is in that 
vein that I ask my next question.
    I know we have spoken a lot about Iran and the sanctions 
and the bill we voted on today, which we are all very pleased 
with as a good step from the Foreign Affairs Committee here in 
Congress, and what the administration's focus on that I would 
like to ask about in relation to our allies.
    One of the measures that I was able to put in as an 
amendment was a reporting requirement where the administration 
tells us how the members of the G-20 are dealing with Iran in 
terms of whether or not they are providing equipment or refined 
petroleum. So I guess my question is, does the Obama 
administration support targeted sanctions against the providers 
of petroleum in Tehran, which you have spoken of a little bit? 
But, also, are we going to work with our allies and companies 
within their countries such as with the Swiss, with Vitol and 
Trust Egora, which are providing material and product to Iran. 
Do we have an approach planned in that regard?
    Mr. Feltman. You know, actually, Congressman, this is an 
ongoing process, and it is largely done quietly. But we have 
used, for example, the Iran Sanctions Act as well as the 
general international desire to see Iran behave like a 
responsible member of the international community in order to 
effect some business decisions.
    You may remember that, for example, Ambassador Burns had 
testified--Bill Burns had testified expressing some concern 
about Norway's state oil company plans for investment in Iran. 
Soon thereafter, Norway said publicly that state oil would be 
relooking at its plans, and they have not moved forward with 
this. So we are using this in a variety of ways.
    I haven't seen the legislation. I know it was marked up 
this morning. So I won't comment on the legislation that the 
administration, I am sure, will be looking at.
    But, in general, what we have been trying to do is work 
multilaterally, where can we get the most people on board to 
have the greatest impact in Iran that we would hope would 
influence Iranian thinking? So multilaterally. And we have also 
tried to keep the focus on Iran's misbehavior, on Iran. Using 
the tools we have to build alliances with others and to 
basically send the message; and we have been somewhat 
successful. I believe that now is not the time for normal 
business operations with Iran.
    Mr. McMahon. Thank you Mr. Chairman.
    Mr. Ackerman. Thank you, very much.
    Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman.
    Mr. Ambassador, I think we all, to varying degrees, support 
bilateral and multilateral efforts; and I know this 
administration is about 10 months into that effort. Senator 
Mitchell has a difficult challenge, as you pointed out. He is a 
patient man, clearly from his experience in the Irish peace 
talks.
    But when we look at the visit here earlier this year by 
King Abdullah from Jordan, when we look at the most recent 
visit by President Mubarak in August, when we look at some of 
the other efforts that are all, I would suppose, to be a part 
of this multilateral and bilateral effort as it relates to the 
Israeli Palestinian peace process, I think there is a concern, 
a level of frustration that we see a number of the critical 
peace partners in the area using this as a crutch or an excuse. 
I mean, the cancellation, as you noted, with Turkey, the 
relationship with Turkey and Syria right now with the 40 
ministers that have been meeting----
    I just picked up a quote earlier this month. King Abdullah 
expressed dismay over a perceived lack of administration focus 
on the Middle East peace process. In an interview with the 
Italian daily la Repubblica, King Abdullah said, ``I heard 
people in Washington talking about Iran and again Iran and 
always Iran, but I keep on insisting on the Palestinian 
question.''
    Clearly, we are concerned about Iran and as you inferred to 
the 5+1, but where are the milestones here that are going to 
show that the countries in the neighborhood are focused at the 
same level that we are about achieving the critical steps 
necessary to achieve this peace that we talk about that is 
always illusive?
    Mr. Feltman. You know, I am surprised to hear the quote you 
give. Because, given the amount of diplomacy that Senator 
Mitchell himself as well as the Secretary and the President 
have devoted to Middle East peace, it strikes me as somewhat 
odd that someone would say, well, this administration is not 
really trying on Middle East peace.
    We want to see negotiations start as quickly as possible 
but also in the best possible atmosphere so that those 
negotiations succeed. It is not enough to just have Israelis 
and Palestinians sit together.
    Mr. Costa. I know, but sometimes that atmosphere is an 
excuse for doing nothing.
    And I just want to ask you about the question of elections. 
The last administration went headlong into elections, and 
sometimes be careful what you wish for. The elections that are 
being proposed next year, are the Palestinians prepared to move 
in that--do we have any confidence in what the outcomes may 
bring?
    Mr. Feltman. I wouldn't say that we would have confidence 
that these elections would be taking place. We know what 
President Abbas has said. We also have seen the reactions to 
that. All I can say is that our partner for peace has got to be 
Palestinians who accept Israel's right to exist, who agree to 
negotiations, who reject the use of violence in order to try to 
affect the outcome, who accept what has been agreed to already. 
That is the Palestinian partner for peace. I think that we will 
see a lot more intra-Palestinian debate before we will see any 
kind of Palestinian elections.
    Mr. Costa. Two other quick questions. I was saddened to see 
an article this summer of children in Hamas camps, summer camps 
reenacting the capture of Gilad Schalit. The Palestinians could 
talk borders and agreements and talk all the good happy talk 
that they want, but I think this was a deplorable incidence. 
And I think summer camp events that recognize or glorify this 
sets the peace process back many steps.
    What is the administration doing about these kinds of 
efforts in the curriculum? It is just not with Palestine. I 
mean, still some of our partners in the Middle East, even 
though they have indicated they are trying to clean up their 
curriculum about references toward Jews and Christians and 
others, it still seems to be a problem.
    Mr. Feltman. The example you describe is awful. I couldn't 
agree with you more. Every party in the area has a 
responsibility to help build the atmosphere for peace, to help 
build the atmosphere for trust and confidence, and the things 
you describe I agree it takes us in absolutely the wrong 
direction.
    We have a dialogue going with a number of countries, it is 
quiet, about the curriculum; and we have some programs that are 
done to try to improve the curriculum that is being taught.
    In the case of sort of Palestinian schools run by UNRWA, 
for example, we have funded a tolerance program that is 
supplemental material. We are very aware of the issue that you 
raise. We agree----
    Mr. Costa. But do we put these countries on notice?
    Mr. Ackerman. The gentleman's time has expired.
    Mr. Costa. It is unacceptable?
    Mr. Ackerman. It is the chair's intent to offer a quick 
second round. So if the gentleman would hold the additional 
question for that time or ask any other questions then.
    Mr. Costa. Thank you, Mr. Chairman.
    Mr. Ackerman. Thank you.
    Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. Thank you and 
welcome, Ambassador Feltman.
    Mr. Feltman. Thank you.
    Mr. Connolly. Let me sort of start picking up a little bit 
on Mr. Costa's questions.
    You made reference earlier to institution building for 
eventuality of a Palestinian state and Saudi investment with 
respect to that. How can there be, however, stable institutions 
for a Palestinian state so long as we have the kind of fracture 
between the leadership in Gaza and the leadership in the West 
Bank?
    Mr. Feltman. You know, the Egyptians are attempting to 
bring about a Palestinian reconciliation, and we would all 
support a Palestinian reconciliation that abides by the Quartet 
conditions, that builds a unified Palestinian partner for 
peace. We are all supportive. But, in the meantime, there is a 
functioning Palestinian Authority on the West Bank. It is 
actually doing a pretty good job.
    The IMF, the World Bank have given high marks to the 
accountability of the institutions being set up. When we get to 
the point that we have a unified Palestinian partner for peace, 
we would assume that those institutions would apply also to 
Gaza, but we don't want to neglect the ones on the West Bank 
that are actually working and recognized by the international 
community as being the Palestinian Authority responsible for 
administration of the Palestinian territories.
    Mr. Connolly. Would the United States welcome--pursuing the 
answer to my own question, your hopes notwithstanding, if in 
fact reconciliation cannot occur, would the United States 
support some kind of interim peace agreement between Israel and 
the Palestinian Authority on the West Bank leaving out Hamas 
and the Gaza?
    Mr. Feltman. Forgive me for making a technical point here. 
The negotiating partner is the PLO, which is sort of above the 
PA. The PLO is a unified organization that is recognized by the 
Arabs to be the sole legitimate representative of the 
Palestinian people. So when we get back to negotiations, who is 
actually sitting there would be representatives of the PLO and 
the Palestinian Authority is administering the territories on 
the ground.
    Mr. Connolly. But you take my point.
    Mr. Feltman. We want to get back to negotiations. 
Implementation of any agreement we would hope would take place 
within a unified authority. But negotiation we believe should 
start as soon as possible, and we would hope those negotiations 
could help lead to a unified authority before we get to the 
point of implementation.
    Mr. Connolly. Are we prepared to go forward even absent a 
unified authority?
    Mr. Feltman. I am--at this point, with all that is going on 
right now, I would prefer not to speculate at this point. We 
are prepared to go forward with negotiations now.
    Mr. Connolly. Okay.
    Lebanon, we had some hopeful results in elections earlier 
this year, but the ability to form a government has been 
stymied. What is the current situation from the United States 
point of view in terms of Lebanon, and are we concerned about 
stability there as well?
    Mr. Feltman. I think it is natural to be concerned when you 
have elections in June, we are now almost to November, and the 
government hasn't been formed. There is a Prime Minister 
designate. He has been nominated twice to form a government, 
and we hope he can do this as quickly as possible. There has 
been a formula decided by all parties.
    Mr. Connolly. Almost as long as waiting for the appointment 
of an USAID administrator, Mr. Feltman.
    Mr. Feltman. That is above my pay grade.
    Mr. Connolly. I know. I couldn't resist.
    Mr. Feltman. We have seen this several times in Lebanon. 
There was no President for a while, and there was a government 
that was boycotted for a while, and there was fighting on the 
streets. And now there is no government. There is no government 
again.
    And when I look back and say, what is the unifying factor 
of all of these things? It was that Hezbollah and Michel Aoun 
were blocking the government, blocking the election of the 
President, blocking the government again, going out to the 
street to protest certain policies they didn't like. But, in 
the end, the Lebanese were able to come together and solve 
their own problems.
    We hope they do that as quickly as possible. It is time to 
have a government in Lebanon. There is a formula for doing so 
and a constitution that lays out the process. The Lebanese need 
to be left to their own devices to do just that.
    Mr. Connolly. Thank you.
    I thank the chair.
    Mr. Ackerman. Mr. Inglis.
    Mr. Inglis. Thank you, Mr. Chairman; and, Ambassador, thank 
you for being here.
    Recently, I sent a letter to Secretary Clinton asking about 
funding cuts for organizations that support democracy in Iran; 
and we are awaiting a response. In fairness, it was only 
October 6th, so I guess we will get a response at some point 
soon.
    So I am interested in what light you might be able to shed 
on the United States policy toward these democracy supporting 
groups in Iran. And what I understand is that the Iranian Human 
Rights Documentation Center, Freedom House, and IRI all are on 
record as saying that their funding has been cut. I wonder if 
you could comment on that and whether you can corroborate that 
or whether--and, if so, what is the policy of the United States 
that would cause us to want to cut those democracy supporting 
organizations?
    Mr. Feltman. Congressman, thanks.
    Let me reiterate, our policy toward our programs in Iran 
hasn't changed. The fundamentals of what we are trying to do in 
Iran and across the region hasn't changed.
    What are we trying to do? We are trying to help create 
space for a functioning, healthy civil society, where civil 
society voices become stronger and where they can be protected. 
We are trying to provide tools for civil society activists to 
get information to connect with each other. We are doing these 
things across the region. We are doing these things in a lot of 
different places. This has not changed from one administration 
to the other, from this week to the last because of elections. 
We are continuing to work in these areas.
    In terms of individual grants of organizations that are 
working in Iran, all I can say is this is pretty competitive. 
We have resources from Congress. We put out solicitations. We 
do the evaluation. We do constant evaluation of a program's 
effectiveness.
    There is no drop in funding. Quite the contrary. The 
individual cases you mentioned, we will look at your letter. I 
am not aware of the cases, but what I can say is the broad 
policy objectives, the broad thrust of what we are doing has 
not changed. We are continuing to work to strengthen civil 
society across the region, including in Iran, using a wide 
variety of partners who tend to compete with each other.
    Mr. Inglis. So I want to track with you on that, because 
that certainly makes a lot of sense. But, on the other hand, we 
have these reports of what seems to be three significant 
organizations being cut, again, Iran Human Rights Documentation 
Center, Freedom House, and IRI. As I understand, a fairly 
significant operation is being cut. You don't have any specific 
information on those three or----
    Mr. Feltman. You know, we tend not to discuss--we tend to 
look at grant information as proprietary information for a 
number of reasons. If we have information, we will share it 
with partners, but we don't share it publicly.
    The other thing is that there is a particular sensitivity 
on the funding of organizations that are doing work in Iran for 
reasons that you can probably all understand. And I understand 
there is, in fact, a staff briefing next week where staff from 
my bureau and others will be coming up to talk to some of your 
staff in more specifics about the programs that we have. And so 
I will make sure that they have any details they can share when 
they come for the staff hearing.
    Mr. Inglis. I guess the overall concern--I will run out of 
time here shortly--is that in our attempt to engage Iran, which 
seems to me to make sense, to try to talk with them in some 
way, I sure hope, though, that we are not giving concessions 
and removing ourselves from support of the projects and 
programs that would spread concepts of democracy in 
constitutional republics in Iran, people wanting to emulate the 
success of the United States and other countries that love 
freedom. And to have us back away from those in order to get 
some kind of engagement seems to me makes no sense, because 
appeasement has never worked before, and it seems to me to fly 
into that danger zone of appeasement which is not wise policy.
    Mr. Feltman. Congressman, we are not backing away. We are 
going full steam ahead with our programs with Iran and across 
the region, again in order to create that space for civil 
society to actually play the proper role that we would all 
understand and building more accountable democratic governing 
institutions.
    Mr. Inglis. Thank you very much.
    Mr. Ackerman. Thank you.
    Mr. Sherman.
    Mr. Sherman. Thank you. I just came by to ask simple 
questions about small amounts of money that are appropriated.
    I believe we provided recently $2.5 million for democracy 
in Syria; and we will be providing money for democracy in Syria 
in the future, I would suspect. Can we be confident that if we 
provide money to the State Department to promote democracy in 
Syria that none of that money will be handed by the State 
Department to President Assad or to his government or to his 
family?
    Mr. Feltman. Congressman Sherman, I am very aware of the 
reference that you are making there; and I assure you we will 
be transparent with the Congress. We will make sure that we 
have done our due diligence about who the end recipients are so 
we are actually helping civil society and not a family.
    Mr. Sherman. Let me at it this way. Assuming you do your 
due diligence--and mistakes can happen, but will you use due 
diligence just to do the due diligence or will you use due 
diligence to make sure that you are doing your best job to make 
sure that none of the money goes to President Assad or to his 
government or to his family? Or are you going to do due 
diligence----
    Mr. Feltman. I will say yes, because we want to support 
civil society in its role. So I will answer your question yes.
    Mr. Sherman. So you will not be building the President 
Assad Health Clinic in Allepo----
    Mr. Feltman. No.
    Mr. Sherman [continuing]. Under the control of the Syrian 
Health Ministry?
    Of course, then referencing the congressional notification 
of September 15th dealing with the $2.5 million we provided to 
promote democracy in Libya, I have been told at less formal 
settings that this document is going to be superseded and that 
no money is going to be spent until we get a new document.
    Mr. Feltman. You are correct, and we will use the same 
criteria you just outlined for Syria when we submit that new 
document to you on Libya.
    Mr. Sherman. Thank you.
    The one thing I will point out about the Libyan document is 
that in many cases it is unclear who gets the money. They 
subdivide it, a half million here, a quarter million there. And 
sometimes they specifically identify who gets the money, and 
sometimes they don't.
    So I will ask you not only to achieve the aims you stated 
but to achieve a specificity in the congressional notification 
so that we know who gets the money, not just what purposes the 
money will try to serve.
    Mr. Feltman. I give you those assurances, Congressman 
Sherman. We understand the sensitivity.
    Mr. Sherman. Thank you very much. I yield back.
    Mr. Ackerman. Thank you, Mr. Sherman.
    Mr. Ambassador, the Obama administration has rightfully 
denounced the Goldstone Report which I want to talk about for a 
minute, which, if taken seriously, would make it legally 
impossible for our country or any other country to defend 
themselves from terrorists who hide between and among 
civilians.
    I would suspect that when a country responds to terrorist 
attacks and terrorists, as we know them of recent vintage, have 
found it to their advantage to hide that way among civilian 
populations. And I would suspect that there were probably some 
given days in our response to the terrorist attack against our 
country that we responded in Afghanistan, maybe today in 
Pakistan, maybe previously in Iraq, in trying to kill bad guys 
who hung out among innocent people, that there were probably 
some of those days where in 1 day we killed as many people as 
who died in the Israeli incursion in Gaza.
    Which, if we were susceptible to any General Assembly 
resolution that might be passed based on Goldstone, other 
countries might take it into their account to declare the 
United States and the officers thereof as international war 
criminals, cite international jurisdiction, and prosecute 
American former soldiers who are now tourists, or the Vice 
President, or you, whoever might venture into their country, 
and put you on trial for being an international war criminal.
    This would prevent us and any other country from defending 
themselves. Prime Minister Netanyahu has been forcefully 
arguing that the international community can't possibly expect 
Israel to exchange land for peace, if, when peace breaks down, 
Israel effectively is prohibited from defending itself.
    Firstly, I think the Prime Minister is completely right; 
and, second, there is not even a shred of possibility that the 
Israeli public would agree to any peace agreement under the 
absurd operational restrictions that the Goldstone Report 
proposes to require of Israel and any other countries' armed 
forces.
    What is the administration doing both to protect our rights 
to self-defense and to make it clear to the international 
community that they can have the Goldstone view, or they can 
have peace in the Middle East, but they can't have Goldstone 
and Middle East peace?
    Mr. Feltman. Mr. Chairman, you gave a very compelling 
description of the problem that the Goldstone Report poses for 
us in terms of our own role and in terms of Middle East peace.
    You know, we were opposed to the mandate of the Goldstone 
Report; and, as you outlined, its conclusions are sweeping. I 
can tell you there is no--we see no role for the Security 
Council. We see no role for Goldstone in the Security Council. 
We will use our voice, our vote, and all organizations where 
the Goldstone Report might appear in order to make it clear 
what the stakes are here and why we have a problem with the 
sweeping conclusion that the Goldstone Report poses.
    You know, you mentioned our own reaction to 9/11 and 
perhaps there were mistakes made now and again. We have 
internal processes to look at those mistakes. Israel does, too. 
It is a democratic state. And this is the point we are making 
to everybody, that Israel has processes that they have and are 
using to investigate any claims of abuses, any claims of--any 
incidents cited by people as being beyond the law of war. So we 
are working to make sure that, to the extent we have this, the 
Goldstone Report doesn't become sort of enshrined 
internationally, that people understand the implications of 
this broadly.
    Mr. Ackerman. Why would we be more successful down the road 
when we weren't successful in dissuading the vote from coming 
up in Geneva and being sent to the General Assembly? Why 
would--is there a process where we are counting votes in the 
General Assembly right now to see if we can kill this thing? 
Because I don't know that the mass goes to our advantage here.
    Mr. Feltman. I don't know. I would agree with you. I would 
be skeptical about our ability to influence a General Assembly 
vote. I am much more confident of our ability to have influence 
in the Security Council, for all the reasons you know; and the 
Security Council, frankly, on matters of international law 
figures much more prominently than the General Assembly does.
    Mr. Ackerman. I have more confidence that you are right 
here than not as far as our influence in the Security Council, 
looking at the lineup, but not completely sure. But, 
nonetheless, if it passes in the General Assembly, that would 
be sufficient enough in some countries to cite the General 
Assembly passage of a resolution as an enabling matter for them 
to invoke whatever they would want to invoke against us or any 
other country. Do you think that there is a mathematical chance 
of stopping it in the General Assembly?
    Mr. Feltman. I----
    Mr. Ackerman. Your answer--I am rephrasing--to the Security 
Council would be, possibly we can, more likely than--but not in 
the General Assembly. What is going to happen is my concern.
    Mr. Feltman. Unfortunately----
    Mr. Ackerman. In the neighboring countries.
    Mr. Feltman. Unfortunately, I think our influence is 
limited in the General Assembly. And it is a problem in many of 
these U.N. bodies that you end up with this inherently anti-
Israeli bias that comes out in a variety of ways. This is one 
that could have broader implications, unfortunately. I do know 
that in Geneva the resolution passed the Human Rights Council, 
but it passed by 25 votes out of 47 members. This is the lowest 
margin of any of these anti-Israeli measures that the U.N. 
Human Rights Council deals with.
    Mr. Ackerman. If the Yankees win the World Series four 
games to three, they are still winners.
    Mr. Feltman. But it may be an indication that with U.S. 
leadership and U.S. partnership with others we can start to 
steer these U.N. organizations away from the number of anti-
Israeli resolutions that almost come up in a pro forma basis. 
And that has got to be our ultimate goal as well, do what we 
can to prevent the enshrining of the Goldstone recommendations 
and do what we can to steer the U.N. bodies away from 
inherently anti-Israeli bias that comes up so often.
    Mr. Ackerman. Last question, is that your shop that is 
doing that or Senator Mitchell's shop?
    Mr. Feltman. It is a joint effort. Because we have 
Ambassador Rice at US-UN, Cabinet official. She was just in 
Israel and had meetings with the Israelis on October 21st where 
this was discussed. We have the international organizations. We 
have the State Department, the legal office. We have a lot of 
people who are working on these issues.
    Mr. Ackerman. Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Just a note on the United Nations. There are some of us 
here in Congress that are skeptical of the United Nations. 
Period. You have an organization set up where it is made----
    Mr. Ackerman. That means your attitude has gotten more 
sympathetic.
    Mr. Rohrabacher. Yes. It is an organization who is made up 
of governments, half of which are so authoritarian and corrupt 
that we would think are totally contrary to what the United 
States is all about, at least half of them. I don't see really 
any future in basing our national security or anybody else's 
security or prosperity on that organization.
    I would like to ask you a little bit about our Government 
policy. You basically told us today that there has not been a 
retreat, even though there is a perceived retreat, from a tough 
stance on human rights. And when given the examples of the 
Human Rights Documentation Center being defunded, the Farsi-
English online journal for democracy and human rights being 
defunded, efforts by the International Republican Institute, 
areas that are focusing on human rights activities in Iran 
being defunded, that those are aberrations and not reflective 
of a broad policy. The broad policy has stayed the same. These 
things are just all little things that don't really reflect the 
overall commitment to human rights.
    Mr. Feltman. Yes, I do say that. I sense your skepticism, 
Congressman Rohrabacher, but I do say that.
    There is a highly competitive process, as the American 
taxpayers would expect, in order for any organization to 
receive U.S. Government funding. I am not aware of these 
individuals' cases but, as I said, there will be a staff 
briefing next week. I will make sure our staff is aware of the 
individual cases and can share what they can share, given 
proprietary concerns and all of that.
    What I said--I will say it again--is, we are continuing 
full steam ahead with our programs to promote civil society, 
promote the protection of human rights, to promote democracy, 
accountable and responsible governments and the rule of law 
across the region, including in Iran.
    We have received funding from Congress for these programs. 
We have asked for funding for these programs. We want these 
programs to continue.
    Perhaps the language sounds a little bit different to you 
now than a year ago; I don't know. But the commitment to work 
for accountability, for rule of law, for protection of human 
rights, for protection of minorities, this is all the same. And 
if you go back and you look at President Obama's speech on July 
4 in Cairo, these themes were indeed there.
    Mr. Rohrabacher. Okay. Let me--I have only got a couple of 
minutes because there is a difference in words and there is a 
difference in what is perceived as attitudes; and sometimes 
what we perceive as sensitive and honest and reaching out is 
perceived in other cultures as weakness and a lack of resolve. 
And I would suggest if that is perceived in the Middle East, 
then we will have the opposite results from what you were 
hoping for.
    Let me get another specific. Camp Ashraf in Iraq is--of 
course, there is an encampment of people who are opposing the 
Iranian dictatorship and actually involved in basically efforts 
to fight the mullahs, and to fight the mullah dictatorship. 
They now are being threatened with being returned. Some people 
are actually talking about returning them to Iran, which would 
probably result in a mass execution.
    What is our position on that? And are we solidly 
suggesting, or solidly and not just suggesting, but do we have 
some penalty for the Iraqi Government if they throw these 
people in Camp Ashraf over to the mullah dictatorship?
    Mr. Feltman. We are watching the situation with Camp Ashraf 
very, very closely. And unfortunately, there has been a recent 
example of where violence could have been avoided by both the 
MEK and the Iraqis, and in fact, it wasn't when the Iraqis, you 
know, went in in a very provocative action to set up a police 
station and the MEK responded with violence.
    We have seen an example, fortunately contained, of what 
could happen. So we are watching this extremely closely.
    I think you are aware that with the turnover of Camp Ashraf 
to Iraqi sovereignty at the beginning of the year, we got 
assurances from the Iraqis that they would not forcibly return, 
forcibly expel the MEK Camp Ashraf residents, MEK members, to 
countries in which they had a reasonable expectation of 
persecution. So we have written assurances.
    Now, in addition, though, we are watching, and we have 
asked the U.N. Assistance Mission in Iraq to also play a role 
here; and the U.N. Assistance Mission in Iraq----
    Mr. Rohrabacher. Have we suggested to the Iraqis that there 
would be a consequence, a negative consequence, that we would 
then act in a way and do something today that would be harmful 
to them if, indeed, they moved on Camp Ashraf and threw these 
people over into the mullah dictatorship next door?
    Mr. Feltman. Believe me, the Iraqis know how concerned we 
are with this. And we have also sent messages to the MEK.
    We are actually more concerned about an Iraqi desire to 
move Camp Ashraf to someplace else inside Iraq. The expectation 
is not that they are going to expel the MEK, Camp Ashraf 
residents, but that they would to try to move them, forcibly 
move them, to a different location in Iraq, and that too could 
lead to bloodshed.
    And so, believe me, Congressman, we are on top of this all 
the time.
    Mr. Rohrabacher. Okay. One last note on this, Mr. Chairman, 
and thank you for indulging me.
    I would think that moving that camp is certainly not on a 
par with sending them back to Iran. They need, the Kurds, who 
have a negative history with this group, may be open to 
accepting them and that might be a useful compromise if the 
Kurds show some leadership in this.
    So thank you very much and I appreciate that, Mr. Chairman.
    Mr. Ackerman. Thank you. Mr. Klein.
    Mr. Klein. Thank you, Mr. Chairman.
    Ambassador, it is nice to see you. Thank you for your 
service. We appreciate it.
    I would like to focus on sanctions. And as you know, we 
took up a bill today in Foreign Affairs, and I think there is a 
general recognition that we in the United States need to send 
strong signals. There are certain things that we can do that 
are symbolic and certain things, including maybe today's 
sanctions and others, that can have more of a broad effect.
    But ultimately the sanctions will be most effective if we 
have our allies and our interested parties around the world 
collaborating with us to do this. And we have been in constant 
contact with the European Union; and it always comes back to 
Russia and China, in addition to the Union, but China's 
influence is quite substantial. They sort of operate in a 
different sphere in many ways.
    There are oil interests, and there have been some efforts 
to substitute oil or some efforts from reaching out to some of 
our friends in the oil-producing countries to replace United 
Arab Emirates and, I think, others. Can you share with us some 
of those, or what you can talk about, can you share with us the 
attempts to try to bring China more effectively into this 
process?
    Mr. Feltman. Congressman, thanks for the question. You 
certainly have zeroed in on a very important aspect of the Iran 
policy.
    We have had a lot of quiet discussions with the Arab states 
about their concerns with Iran because their concerns with Iran 
largely overlap with ours, but they are also somewhat different 
because they live in the neighborhood. And they have very 
strong concerns about Iran.
    We have talked to them about the need to implement the 
Security Council resolutions. We have got progress there in 
terms of the sanctions on Iran that are mentioned in three 
Chapter 7 Security Council resolutions. But we have also had 
the conversations with them that, hey, you guys are concerned 
about Iran; you have relations with China and you have certain 
assets that you can bring to a discussion with China about 
that.
    So we have encouraged the sort of discussion that you have 
talked about, and I think you have seen publicly some reference 
to results on this. In general, China has played a constructive 
role with us. China has assured us that they are with us on the 
P5+1 approach to Iran.
    So we are looking at the question of working 
internationally in a variety of ways; one is the P5+1, one is 
working to find other multilateral alliances, like-minded 
states that will join with us on sanctions that may go beyond 
what is less specifically in the U.N.
    You may have seen last week, for example, that the United 
Kingdom has designated the Islamic Republic of Iran shipping 
lines, IRISL, which follows the designation we did a while ago, 
which again adds a multilateral aspect to sanctions that we 
think is useful.
    Mr. Klein. Thank you for those comments.
    I mean, I will share with you--and it is no big revelation 
here--that all of us as members of this committee, we receive 
the ambassadors and representatives of the Arab states 
regularly, and they all mention in their talking points about 
Ahmadinejad and the threat that Iran poses to the neighborhood.
    And, in fact, you know, I give full credit to the first 
President Bush, who was able to engage in a much broader way 
the other Arab states, in part because the invasion of Kuwait 
was a direct threat to the neighbors. Again, we need to be 
building on that.
    And the second question, which you have already gotten into 
a little bit, was what else can our Arab allies do to help 
facilitate changes here in behavior? And part of that is the 
oil. Are there other issues out there besides oil that China is 
interested in, that it deals with with Iran?
    Mr. Feltman. Well, the other aspect that we talk to the 
Arabs a lot about are--I mentioned it briefly--are the 
financial sanctions, are the sanctions that are mentioned in 
three Security Council resolutions.
    Countries like the UAE--UAE have been implementing the 
regulations needed to put these sanctions into effect. So that 
is another aspect of that is to make sure that all of our 
allies are complying with the Security Council resolutions, in 
a way that Iran looks out of its borders and says, hey, wait a 
minute, these sanctions are starting to hurt and they are 
starting to be universally applied. That is one aspect of it.
    Another aspect, frankly, are security and military 
cooperation. We have a very strong security-military 
cooperation going with each of the Gulf States. I would suspect 
at some point, Iran is looking across the Gulf and saying, hey, 
wait a minute. When did that happen? When did all these states 
across the water from us get this kind of sophisticated armed 
forces?
    We are working in a lot of different ways to try to get 
Iran's attention and persuade Iran that it is time to alter its 
behavior and become a responsible member of the international 
community, rather than a rogue member of the international 
community.
    Mr. Klein. Mr. Chairman, if I can just follow up, one last 
question if you would indulge me?
    Part of that whole sanctions process is to--when we pass 
sanctions, to enforce them. The Iran Sanctions Act that was 
passed a number of years ago, through the last couple of 
administrations, I think that a lot of people feel like we have 
not enforced enough of really what has been identified. And I 
did a letter recently with about 50 Members, which went out to 
encourage the administration to identify and facilitate the 
enforcement. And the basis of that was from the Congressional 
Research Service report that we got a copy of from October 8, 
2009, which identified a number of businesses that are in 
violation of the Iran Sanctions Act.
    So my purpose in bringing that up in this hearing today is 
to, if we are going to be serious about this, and have both a 
diplomatic effort, which I fully endorse and support, as well 
as the carrot and the stick, the stick has to be viewed as not 
just symbolic, not just a piece of paper, but ready--and we are 
willing and taking action to enforce its terms.
    Mr. Feltman. If I may, Mr. Chairman, respond?
    Our approach on sanctions in general has been, let's work 
multilaterally. Let's keep the spotlight on what Iran is doing. 
Let's not have fights among the allies. Let's bring the allies 
together in order to bring the pressure to bear on Iran.
    But we have heard your message loud and clear about the 
Iran Sanctions Act. We have the message of this committee loud 
and clear about the Iran Sanctions Act. We have the letter that 
you and many others of this committee have signed.
    And I will tell you that we have started a process of 
looking into the 20 companies, the 20 deals that you list in 
this letter, and we expect to have this preliminary review 
finished in about 45 days, in which case we would be able to 
say which of these need a further investigation as to whether 
they violate the Iran Sanctions Act.
    And we look forward to working with this committee, keeping 
Congress informed as we go forward in this review process of 
the deals listed in your letter.
    I will comment that, in some cases, Iran announces all 
sorts of deals that--they do it for political purposes that, in 
fact, don't amount to anything. And there are a couple, like 
with Total in particular that Iran has trumpeted, that we have 
looked into; and in fact, nothing is there. So we have got to 
start a review process of the 20 companies that are on that 
list.
    Mr. Ackerman. Well, Mr. Ambassador, it appears that my list 
is exhausted. You have outlasted and endured us. We thank you 
very much for your participation, your excellent testimony and 
the frank discussion we have had and your answering all of our 
questions. Hope to see you soon.
    Mr. Feltman. Thank you for inviting me, Mr. Chairman.
    Mr. Ackerman. The subcommittee stands adjourned.
    [Whereupon, at 3:55 p.m., the subcommittee was adjourned.]
                                     

                                     























                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               
                                 <all>

</pre></body></html>
